 

 

IN THE
Supreme Court of the Anited States

DONALD J. TRUMP,
PRESIDENT OF THE UNITED STATES, ET AL.,
Petitioners,
v.
SIERRA CLUB, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I, Brianne J. Gorod, do hereby declare that on January 19, 2021, as required
by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the
Brief of Federal Courts Scholars as Amici Curiae in Support of Respondents on

counsel for each party to the above proceedings as follows:

Jeffrey B. Wall

Acting Solicitor General
United States Dept. of Justice
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
(202) 514-2217

Counsel of Record for Petitioners
Donald J. Trump, President of the
United States, et al.

Dror Ladin

American Civil Liberties Union Foundation
125 Broad St., Fl. 18

New York, NY 10004

dladin@aclu.org

(212) 284-7303

Counsel of Record for Respondents
Sierra Club & Southern Border

Communities Coalition

Aimee Athena Feinberg
California Dept. of Justice
1300 I St.

Sacramento, CA 95814
Aimee.Feinberg@doj.ca.gov
(916) 210-6003

Counsel of Record for the States of
California and New Mexico

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 19, 2021.

 

Counsel for Amici Curiae
